           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         SOCIAL SECURITY
  ADMINISTRATION’S MANAGEMENT
   OF INFORMATION TECHNOLOGY
            PROJECTS


    July 2007   A-14-07-17099




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      July 26, 2007                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Social Security Administration’s Management of Information Technology Projects
           (A-14-07-17099)


           OBJECTIVE

           The objective of our review was to determine whether the Social Security Administration
           (SSA) receives the intended value for its Information Technology (IT) investments.
           Specifically, we examined whether SSA has a process in place to determine if its
           planned functionality and cost savings were achieved.

           BACKGROUND

           The Clinger-Cohen Act of 1996 requires that Federal agencies establish effective and
           efficient planning processes for selecting, managing, and evaluating the results of all
           their major investments in information systems. 1 The Office of Management and
           Budget (OMB) Circular A-130, Management of Federal Information Resources, requires
           Federal agencies to “…conduct post-implementation reviews of information systems
           and information resources management processes to validate estimated benefits and
           costs, and document effective management practices for broader use.”

           SSA Information Technology Planning Process

           At SSA, the Information Technology Advisory Board (ITAB) is the governing body for its
           IT planning process and is responsible for the development of the Agency IT Systems
           Plan. The Agency’s ITAB is chaired by the Chief Information Officer and its
           membership is comprised of the Deputy Commissioner for SSA, all Deputy
           Commissioners for the business components, as well as other Agency executives.




           1
               Pub. L. 104-106, Division E, Sec. 5113(b)(2)(A).
Page 2 - The Commissioner

The ITAB reviews a variety of SSA’s IT projects categorized by investment portfolios.
Each investment portfolio contains a list of IT projects, which support one of the SSA’s
strategic objectives documented in the Agency’s Strategic Plan. Portfolio teams are led
by an Agency executive who functions as the portfolio manager. The portfolio team
coordinates with stakeholders to prioritize IT projects according to their importance in
achieving the related strategic objective. (See Appendix C for an overview of SSA’s IT
planning process). The IT planning process used in prioritizing portfolio items can take
as long as 6 months.

After the IT projects are prioritized and presented to the ITAB, the ITAB must decide
which of the Agency’s scarce resources will be assigned to the various IT projects. In
making this decision, the ITAB not only considers the portfolio priorities, it also
considers the related cost benefit analysis provided by the sponsoring components.
Such information includes return on investment (ROI), full-time equivalent (FTE)
savings, dollar savings, and cost avoidance.

Once the projects have been selected for implementation the ITAB tracks their
progress. The ITAB representatives are presented with SSA’s achievements and how
well the Agency’s major IT projects progressed in terms of cost and schedule, on a
quarterly basis. However, ITAB is not informed whether the projects it approved
actually achieved their estimated functionality and cost savings.

SSA’s Investment Results Evaluation

SSA’s evaluation of its investment results is a bifurcated process. SSA’s Office of the
Chief Information Officer (OCIO) has established the policy for conducting Post
Implementation Reviews (PIR) to determine whether the projects’ planned benefits
have been achieved and the reasons for any discrepancies. This policy is documented
in SSA Target Information Technology (IT) Capital Planning and Investment Control
Process (CPIC) Guide. Although not intended to meet the requirements of a PIR, a
separate process for evaluating the functionality of IT projects and documenting the
lessons learned is conducted by SSA’s Office of Systems (OS). SSA’s OS conducts
Post Release Reviews (PRR) to verify with the customer that the promised functionality
was delivered after the completion and implementation of a project or the major release
of a project.
Page 3 - The Commissioner

RESULTS OF REVIEW
SSA’s ITAB evaluates functionality, ROI, and cost savings information to formulate its
decisions during the IT planning process. However, IT investment results are not
independently verified after project completion to ensure that the functionality and cost
savings were ultimately achieved. Table 1 provides four examples of IT projects that
were approved by ITAB for Fiscal Year 2006 implementation. Table 1 illustrates the
resources SSA estimated it needed to deliver the projects’ functionality and cost
savings.
                                        TABLE 1
Table 1. Projects Proposed to the ITAB Committee for Fiscal Year 2006 Implementation 2
   Project   Total Costs      Functional      FTE       Net     ROI       Investment
   Name       and Staff       Description   Savings Cost         %          Results
                Level                                 Saving            Independently
                                                                           Verified?
Access to    $37 million Collect            None      $ 232 614               No
information 13 FTEs       permission to               million
held by                   obtain financial
financial                 data from all SSI
institutions              beneficiaries
800#         $2 million   Increase 800#     774       $ 48    1,997           No
Speech       9 FTEs       efficiency and              million
technology                provide more
(change of                timely and
address /                 accurate
direct                    changes
deposit)
Annual       $13 million Allows             5,936     $ 248 1,897             No
wage         132 FTEs     employers to                million
reporting                 submit annual
tax year                  wage reports to
new                       SSA using
                          various methods
                          of reporting
WEB-         $0.8 million Allows SSA to     220       $ 14    1,657           No
based        3 FTE        verify Alien                million
SAVE                      Status with
                          Department of
                          Homeland
                          Security via the
                          Web


2
    The information is based on July 25, 2005, ITAB meeting material except for the total costs and FTEs.
    The total costs and FTE information is based on the Cost Benefit Analysis documents for these projects
    that are stored in SSA’s Electronic General Auditable Documents Store (EGADS) database.
Page 4 - The Commissioner

SSA has established a PIR policy for verifying planned benefits of its IT projects that
generally meets OMB's requirements. However, SSA has not been conducting PIRs to
verify functionality and cost savings. PIRs would help enable ITAB to determine
whether many of the IT projects it assessed and approved actually delivered the
projects’ functionality and cost savings as estimated. Furthermore, without the
verification of functionality and cost saving information, ITAB lacks information on
where dollars should be spent.

Independent of the PIRs, SSA’s OS performs PRRs to verify with the customer whether
the planned functionality of an IT project has been delivered. This process can be
improved in a few areas as discussed below. SSA has not yet established a process to
verify the estimated cost savings. For budgeting purposes, the Office of Operations
conducts analysis of certain IT projects that impact on Operations FTE positions;
however, the analysis is limited to Operations staff savings and therefore does not meet
PIR requirements. Also, the results are only reported within the Office of Operations
and to the Office of Budget.

SSA’s processes for verifying functionality and cost savings could be improved if it
would leverage the current OS PRR mechanism, with modifications, to meet some PIR
requirements. SSA needs to address both the PIR and PRR processes.

SSA DOES NOT HAVE A PIR PROCESS
                                                    3
SSA did not determine whether its major IT projects have delivered the overall
functionality and cost savings as required by OMB. As a result, SSA did not have an
effective means to know how well its major IT investments, individually or collectively,
delivered the functionality and cost savings planned to achieve the Agency’s
organizational goals.

OMB requires that Federal agencies conduct PIRs to validate expected functionality
and cost savings after a major IT project is completed and implemented. 4 According to
SSA’s OCIO, it did not have the required resources to conduct PIRs for SSA’s major IT
projects. In addition, related efforts of other SSA components were not coordinated or
integrated to form a system that, as a whole, independently measured whether the
Agency’s major IT projects achieved the functionality and cost savings promised. One
way to help SSA satisfy OMB’s PIR requirements is by accumulating, consolidating and
communicating the results of OS’s current PRR activities across SSA.

To address these issues, SSA needs to coordinate its internal efforts to create a PIR
process that is adequately staffed to measure whether its major IT projects deliver the
expected functionality and cost savings and ensure its management and ITAB are
informed of the results.

3
    A major IT project is an IT project or a group of IT projects SSA presents to OMB as an individual capital
    asset plan and business case for a budget request.
4
    OMB Circular A-130, Management of Federal Information Resources, section 8b(1)(d)(i).
Page 5 - The Commissioner

SSA’s CURRENT PRR PROCESS NEEDS IMPROVEMENT

PRRs conducted by OS are the closest process within SSA to a PIR as defined by
OMB. OS staff stated that its PRR procedure is an internal process to OS and was not
designed to satisfy OMB requirements for a PIR. However, PIRs are required and OS’s
PRR process, if conducted by an independent and objective review team, can
contribute to fulfilling the OMB PIR requirements. The PRR process needs to address
the following issues:

Promised Functionality Was Not Systematically Verified

In 6 of the 10 OS PRR reports we evaluated (see Appendix B), the documentation did
                                                                  5
not indicate if the promised functionality was actually obtained. We reviewed these
reports with the corresponding Project Scope Agreements (PSA) and other related
documents. In addition to the six PRR reports, which did not state whether functionality
was achieved, we also found the other four review reports did not adequately document
the functionality achieved. For example, one PRR report concluded that the project met
the user's expectations of functionality; however, the documentation only had support
for a small portion of the total functionality documented in the PSA. As a result, SSA
management could not rely on these reports to determine what functions were achieved
and to what degree they were achieved.

The causes of these issues were as follows:

       •   There was a lack of standardized methodology to ensure functionality
           documented in the PSAs was completely and systematically verified during
           the OS PRR process.
       •   Detailed standards for reporting the degree of functionality achieved was not
           sufficient. Project Managers were left with discretion on the degree of details
           to be reported.
       •   OS did not provide sufficient training to ensure PRRs were properly
           conducted.

OS Systems Process Improvement (SPI) staff stated that they were aware of and
agreed with our observations in these areas. The SPI Branch is conducting a study to
plan improvements for the PRR process.




5
 We randomly selected a sample of 10 of the 52 Post Release Review project reports as of
November 30, 2006 that were stored in SSA’s EGADS database.
Page 6 - The Commissioner

To address these issues, SSA needs to:

          •   define standards and methodology for project review teams to determine the
              degree of promised functionality that was delivered;
          •   refine its guidance on functionality review reporting to ensure the degree of
              functionality achievements are properly reported and verified with the client;
              and
          •   provide training to ensure related SSA policies and procedures are properly
              followed.

PRR Results Were Not Effectively Communicated To Appropriate Management

OS did not effectively communicate its functionality review results to ITAB. Results of
PRRs were communicated with OS management in monthly and quarterly management
                                                            6
meetings and were stored in a central repository database. However, there is no
evidence that review results were effectively communicated outside OS to ITAB. SSA
established ITAB to ensure sufficient involvement of senior SSA executives.

As a result, SSA's senior executives lacked information they could have used to
evaluate the effectiveness of SSA's IT investments in achieving organizational goals
and objectives. Also, without the verification of functionality and cost savings
information, ITAB lacks information on where dollars should be spent.

Federal agencies are required by the Clinger-Cohen Act to develop an effective CPIC
process for the selection of IT investments, the management of such investments, and
the evaluation of the results of such investments. 7

SSA's IT decision makers and senior executives need to know whether the IT projects
were completed with the promised functionality achieved. SSA needs to ensure that
PRR results are reported to the ITAB and this communication is documented.




6
    EGADS database.
7
    Pub. L. 104-106, Division E, Sec. 5122 (a) and (b)(1).
Page 7 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
SSA has established a policy for evaluating the results of its IT investments. However,
the Agency has not implemented an effective process to determine if planned
functionality and cost savings of its IT projects are actually achieved.

To make SSA’s evaluation process of IT investments more effective and informative,
we recommend the following:

1. Implement a PIR process as required by OMB and, to the extent possible, leverage
   SSA’s current processes.

2. Enhance the current OS PRR process to contribute to OMB requirements by
   ensuring:

   a. Standards and methodology are defined for the project review teams to use in
      evaluating the degree of promised functionality that was delivered;

   b. PRR results are fully documented, reported, and communicated to appropriate
      SSA management consistent with established guidance; and

   c. Training is provided to ensure pertinent SSA policies and procedures are
      properly followed when conducting PRRs.

AGENCY COMMENTS

SSA agreed with our recommendations. The text of SSA’s comments is included in
Appendix D.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Information Technology Planning Process Overview
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
CPIC    Capital Planning and Investment Control
EGADS   Electronic General Auditable Documents Store
FTE     Full-Time Equivalent
IT      Information Technology
ITAB    Information Technology Advisory Board
OCIO    Office of the Chief Information Officer
OMB     Office of Management and Budget
OS      Office of Systems
PIR     Post Implementation Review
PRR     Post Release Review
PSA     Project Scope Agreement
ROI     Return on Investment
SPI     System Process Improvement
SSA     Social Security Administration
                                                                       Appendix B

Scope and Methodology
The objective of our review was to determine whether the Social Security Administration
(SSA) receives the intended values for its Information Technology (IT) investments.
Specifically, we examined whether SSA has a process in place to determine whether
the planned functionality and cost savings were achieved.

To meet the objective of this audit, we reviewed relevant Federal laws, regulations and
guidance. We reviewed SSA’s IT capital planning and investment control process, with
a focus on the evaluation process of IT investment results, by reviewing SSA policies,
procedures and practices, and conducting interviews with relevant SSA personnel. We
also examined a random sample of the Office of System’s (OS) Post Release Review
(PRR) reports.

We have reviewed the following Federal laws, regulations, and guidance:

      •    Clinger Cohen Act of 1996.
      •    Government Accountability Office, Information Technology Investment
           Management, A Framework for Assessing and Improving Process Maturity,
           dated March 2004.
      •    Office of Management and Budget (OMB) Circular A-11, Part 7: Planning,
           Budgeting, and Acquisition of Capital Assets, and its supplement, Capital
           Programming Guide Version 2.0, dated June 2006.
      •    OMB Circular A-130, Management of Federal Information Resources.

We have reviewed the following SSA policies, procedures, and documents:

       •   SSA Target Information Technology (IT) Capital Planning and Investment
           Control Process (CPIC) Guide.
       •   OS Procedure for Conducting a Phase I - Post Implementation Review.
       •   SSA Information Technology Advisory Board meeting materials and minutes.

We have contacted or interviewed SSA staff in the following components:

      •    Office of the Chief Information Officer, Office of Information Technology
           Systems Review;
      •    OS, Systems Planning Staff;
      •    Office of Operations, Office of Public Service and Operations Support,
           Division of Resource Management Information; and


                                           B-1
      •   Office of Budget, Finance and Management, Office of Budget.

We randomly selected a sample of 10 of 52 projects whose PRR reports were
documented in SSA’s Electronic General Auditable Documents Store database as of
November 30, 2006. Our sampling frame is limited to reports documented in the
database since the beginning of Calendar Year 2005 to November 2006. We reviewed
these PRR reports with the corresponding Project Scope Agreements (PSA) and other
related documents as needed to meet our audit objective. The 10 projects or release
projects as titled on the PRR reports or PSAs were:

   1. Disability Case Adjudication and Review System Release 5.0 and Electronic
      Disability Case Adjudication and Review System Release 3.0.
   2. Social Security Number Verification Service Release 4.
   3. Assignment and Correspondence Tracking System.
   4. 800# Change of Address and Direct Deposit.
   5. Electronic Disability Collect System / Electronic View / Electronic Interface
      standards, Version 8.1.
   6. Windows Operating System Migration Project.
   7. Software Image Distribution.
   8. SSA Unified Measurement Systems Enumeration Release 1.
   9. Customer Help and Information Program Service Observation Release.
   10. Changes Required by New Simplification Regulations.

This audit was performed in accordance with generally accepted government auditing
standards. We conducted our field work at the SSA Headquarters in Baltimore,
Maryland from December 2006 until February 2007.




                                           B-2
Appendix C
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      July 5, 2007                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, “Social Security Administration’s
           Management of Information Technology Projects” (A-14-07-17099)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SOCIAL SECURITY ADMINISTRATION’S MANAGEMENT OF INFORMATION
TECHNOLOGY PROJECTS”(A-14-07-17099)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this audit of the Social Security Administration’s (SSA) management of information
technology (IT) projects.

Recommendation 1

SSA should implement a Post Implementation Reviews (PIR) process as required by the Office
of Management and Budget (OMB) and, to the extent possible, leverage SSA’s current processes.

Comment

We agree with this recommendation. SSA’s Office of the Chief Information Officer (OCIO)
remains committed to carrying out PIRs subject to the availability of resources. It is the intention
of the OCIO to develop a PIR process that follows the IT investment throughout its life cycle,
assessing the return on investment along the way, so that incremental investment decisions can
be based on current assessments of resources invested and value returned, as well as better
informed forecasts of future costs and benefits.

Recommendation 2

SSA should enhance the current Office of Systems’ (OS) Post Release Reviews (PRR) process to
contribute to OMB requirements by ensuring:

   a. Standards and methodology are defined for the project review teams to use in evaluating
      the degree of promised functionality that was delivered;

   b. PRR results are fully documented, reported, and communicated to appropriate SSA
      management consistent with established guidance; and

   c. Training is provided to ensure pertinent SSA policies and procedures are properly
      followed when conducting PRRs.

Comment

We agree. We are in the process of revising the OS PRR process in line with what has been
stated in the recommendation. This will go through the normal review and approval process and
is anticipated for implementation in October 2007. Training will be provided as part of the
Project Management Curriculum for OS project managers.




                                                D-2
The subject report does a great service by pointing out that a number of Agency components
carry out evaluations of various aspects of IT investments that may be melded into a coherent
assessment of an investment’s overall success in achieving its initial functional and cost-benefit
expectations. SSA is fully committed to working to leverage these existing processes, along with
any new processes that are required, to develop a comprehensive PIR process that will meet
OMB’s requirements and provide superior IT investment management information for the
consideration of the Information Technology Advisory Board and other senior executives.


[In addition to the comments above, SSA provided some technical comments which
have been addressed in this report.]




                                               D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technical Audits Division, (410) 965-9702

   Albert Darago, Audit Manager, Application Controls Branch, (410) 965-9710

Acknowledgments

In addition to those named above:

   Grace Chi, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-07-17099.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
